COCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-511
FACEBOOK, INC., PETITIONER
v.
NOAH DUGUID, INDIVIDUALLY AND ON

BEHALF OF HIMSELF AND ALL OTHERS SIMILARLY
SITUATED, AND UNITED STATES OF AMERICA

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR RETAIL LITIGATION CENTER, INC. AS
AMICUS CURIAE SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

DEBORAH R. WHITE

KATHLEEN MCGUIGAN

RETAIL LITIGATION
CENTER, INC.

99M St. SE, Suite 700

Washington, DC 20003

* Not admitted in the District
of Columbia; admitted only in
California; practice supervised
by principals of Morrison &
Foerster LLP admitted in

the District of Columbia.

JOSEPH R. PALMORE

Counsel of Record
SAMUEL B. GOLDSTEIN*
MORRISON & FOERSTER LLP
2000 Pennsylvania Ave. NW
Washington, DC 20006
(202) 887-6940
JPalmore@mofo.com

TIFFANY CHEUNG
MORRISON & FOERSTER LLP
425 Market St.

San Francisco, CA 94015

Counsel for Retail
Litigation Center, Inc.

Subscribed and sworn to before me this 20th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

Notary Public

My Commission Expires Nov 24, 2020

 

Affiant 38927

 
 

Attorneys for Petitioner

Paul D. Clement
Counsel of Record

Party name: Facebook, Inc.

Kirkland & Ellis LLP 202-389-5000
1301 Pennsylvania Avenue, NW
Washington, DC 20004

paul.clement@kirkland.com

 

 

Attorneys for Respondents

Noel J. Francisco
Counsel of Record

Party name: United States

Solicitor General 202-514-2217
United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

 

 
